CERTIFICATE OF SERVICE

I Raymond L Rogers, certify (declare, sate or verify) that one true copy of this
[petition for writ of certiorari] was mailed to the clerk of The United States
Supreme Court located at 1 First Street, N. E., Washington, DC, 20543, via first
class pre-paid postage, on this Wednesday, July 12, Date, 2019.
Respectfully Signed,

*****

v;^

Pro se

ยง 1746 DECLARATION UNDER THE PENALTY OF PERJURY

I declare (certify, verify, or state) under the Penalty of Perjury under the laws of
The United States of America, that the foregoing is true and correct. Executed on
July 12, 2019.
Respectfully Signed
<T

.....

Date: July 12. 2019

Pro se

CERTIFICATE OF COMPLIANCE

No.
RAYMOND LAMONTE ROGERS,
Petitioner(s)
v.
UNITED STATES OF AMERICA
Respondent(s)
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 3072 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 12. 2019

ยง 1746 DECLARATION UNDER THE PENALTY OF PERJURY
I declare (certify, verify, or state) under the Penalty of Perjury under the laws of
The United States of America, that the foregoing is true and correct. Executed on
July 12, 2019.
Respectfully Signed,

Date: July 12. 2019

CERTIFICATE OF SERVICE
I Raymond L Rogers, certify (declare, sate or verify) that one true copy of this
[petition for writ of certiorari] was mailed to the clerk of The United States
Supreme Court located at 1 First Street, N. E., Washington, DC, 20543, via first
class pre-paid postage, on this Wednesday, July 12, Date, 2019 and to Solicitor
General of the United States, Room 564, Department of Justice, 950 Pennsylvania
Avenue, N.W., Washington, D.C. 20530-0001, via first class pre-paid postage, on
this day Wednesday, August 14, 2019.
Respectfully Signed,
Pro se

ยง 1746 DECLARATION UNDER THE PENALTY OF PERJURY

I declare (certify, verify, or state) under the Penalty of Perjury under the laws of
The United States of America, that the foregoing is true and correct. Executed on
July 12, 2019.
Respectfully Signed,
Pro se

